Audit Report 97-17
IMMIGRATION AND NATURALIZATION SERVICE
IMMIGRATION USER FEE REMITTANCES
Audit Report   97-17,  (5/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
APPENDIX I -- SCOPE AND METHODOLOGY
APPENDIX II -- SCHEDULE OF DOLLAR-RELATED FINDINGS
EXECUTIVE SUMMARY
The Immigration and Naturalization Service (INS) collects an immigration user fee from
international passengers traveling into the United States. This fee is primarily used to
fund inspection and detention services at air and sea ports-of-entry. For FY 1996,
approximately $347 million was collected in immigration user fees.
We determined that the U.S. Treasury could have realized annualized1
enhanced revenues of at least $1 million from interest savings if immigration user fee
collections had been remitted to INS on a monthly basis rather than a quarterly basis in
FY 1995 and 1996. Furthermore, if the immigration user fee collections had been remitted
to INS on a monthly basis, INS would have been able to more quickly identify collectors
(air or sea carriers) experiencing financial difficulties in order to reduce the amount of
user fees required to be recovered through the bankruptcy courts.
The U.S. Customs Service (Customs) and the Animal and Plant Health Inspection Service
of the U.S. Department of Agriculture (APHIS) also collect passenger user fees which are
similar to the immigration user fee. For FY 1996, approximately $444 million was collected
in Customs and APHIS user fees. If Customs and APHIS user fees had also been remitted on a
monthly basis rather than a quarterly basis in FY 1995 and 1996, the U.S. Treasury could
have additionally realized annualized enhanced revenues of at least $1.4 million from
interest savings.
The quarterly remittance schedule for the immigration user fee is mandated in Section
286 of the Immigration and Nationality Act of 1952 (8 U.S.C. 1356), which contains the
authority for the collection of the user fee. U.S. Treasury cash management guidelines
would normally require a more aggressive collection of these fees.
The details of our work are contained in the Findings and Recommendations section of
the report. Our audit scope and methodology are contained in Appendix I.
INTRODUCTION
Section 286 of the Immigration and Nationality Act (INA) provides that the Attorney
General charge and collect $6 per individual for the immigration inspection of each
passenger arriving at a port of entry in the United States aboard a commercial aircraft or
commercial vessel, or for the preinspection of a passenger in a place outside of the
United States prior to such arrival in the United States. Limited categories of
individuals are exempt from the immigration user fee.
The immigration user fee was established in 1986 by Public Laws 99-500 and 99-591,
which amended Section 286 of the INA (8 U.S.C. 1356). The regulations governing the
immigration user fee are codified in 8 C.F.R. § 286. The purpose of the immigration user
fee is generally to provide funds for:
· aircraft and vessel inspection and preinspection services;
· overtime immigration inspection services for commercial aircraft or vessels;
· administration of debt recovery, including the establishment and operations of a
national collections office;
· expansion, operation, and maintenance of information systems for nonimmigrant
control and debt collection;
· detection of fraudulent documents used by passengers traveling to the United States;
· detention and removal services for inadmissible aliens arriving on commercial
aircraft and vessels; and
· exclusion and asylum proceedings at air or sea ports of entry for inadmissible
aliens arriving on commercial aircraft and vessels.
Each entity that issues a document or ticket to an individual for transportation by a
commercial vessel or commercial aircraft into the United States collects the $6 fee from
that individual at the time the document or ticket is issued. The collector remits the
user fee to the INS within 31 days after the close of the calendar quarter in which the
user fee was collected. However, the fourth quarter payment for collections from airline
passengers in July and August are due September 20 and collections in September through
December are due January 31. For purposes of this audit report, "collector"
includes air or sea carriers, travel agents, tour wholesalers, or other entities that
collect immigration user fees and remit them to INS.
Both Customs and APHIS have a similar type of passenger user fee that is charged for
services performed for passengers traveling into the United States. The Customs user fee
is currently $6.50 and the APHIS user fee is currently $1.45. Beginning October 1, 1997,
the Customs user fee is to be reduced to $5. The regulations governing the collection and
remittance of the Customs and APHIS user fees are generally the same as the regulations
governing the immigration user fee, except for the fourth quarter payment for collections
from airline passengers.
The passengers required to pay the three user fees are generally the same, although
there are some differences in the types of passengers exempt from paying each fee. For
example, the APHIS user fee applies to commercial aircraft passengers only and does not
apply to passengers traveling from Canada into the United States. The regulations
governing the Customs and APHIS user fees are codified in 19 C.F.R. § 24.22 (g) and 7
C.F.R. § 354.3, respectively.
FINDINGS AND RECOMMENDATIONS
The immigration user fee is remitted to the INS significantly later than when the user
fee is actually collected because of the current legislative requirements regarding the
collection and remittance of the immigration user fee. This delay ranges from 20 days to
152 days. As a result, INS is unable to fully maximize the use of these resources.
Furthermore, the U.S. Treasury could have realized annualized enhanced revenues of at
least $1 million from interest savings if the immigration user fee collections were
remitted more quickly, for example, on a monthly basis rather than a quarterly basis, in
FY 1995 and 1996. The U.S. Treasury could have also realized annualized enhanced revenues
of at least $1.4 million if the Customs and APHIS user fees had also been remitted on a
monthly basis in FY 1995 and 1996.
The immigration user fee is collected at the time the ticket or travel document is
issued and is remitted to the INS within 31 days after the close of the calendar quarter
in which the fee was collected, except for the fourth quarter payment for collections from
airline passengers. The remittance schedule is essentially on a quarterly basis, and will
be referred to as such for purposes of this audit report. Table 1 shows the current
remittance schedule2 and the longest and shortest number of days
the immigration user fee is held until it is remitted to INS.
Table 1
User Fee Collected
Remittance due to INS
Number of Days User Fee Held
01/01 -- 03/31
05/01
120 to 31 days
04/01 -- 06/30
07/31
121 to 31 days
07/01 -- 08/31
09/20
81 to 20 days
09/01 -- 12/31
01/31
152 to 31 days
Source: 8 USC 1356 and 8 C.F.R. § 286.
Although the quarterly remittance schedule for immigration user fees is mandated by
law, it differs from other federal government cash management practices. Cash collection
initiatives over the past 10 years have stressed the importance of federal agencies
aggressively collecting federal funds. The U.S. Treasury's cash management guidelines
provide that invoices should be prepared and mailed within 5 business days after goods
have been shipped or services rendered, and payment is due 30 days from the date of the
invoice, unless otherwise provided by law. In addition, depending on the amount of the tax
liability, federal income tax withholdings could be required to be remitted by the end of
the next banking day by the employer. Federal income tax withholdings are similar to
immigration user fees in that a third party (employers) collect funds on behalf of the
government. However, remittances for income tax withholdings by employers are normally
remitted to the federal government on a quicker schedule than for immigration user fees.
If the immigration user fees were remitted more quickly, for example, on a monthly
basis, then the INS would have access to these funds sooner. In addition, INS would be
able to more promptly identify collectors that are delinquent in remitting the immigration
user fee. INS staff have indicated that collectors are not required to maintain the
immigration user fee collections in a separate escrow account. Rather, some collectors
co-mingle immigration user fee funds with their own operating funds to supplement their
operational revenues. As a result, in the past, when some of these collectors filed for
bankruptcy, INS was required to recover the immigration user fee collections through the
bankruptcy courts. In addition, INS has had to develop payment plans for some collectors
who had not been remitting user fee collections timely. According to INS staff, both of
these situations can take years to resolve and involve an extensive amount of staff time
and effort. If user fees were also required to be maintained in a separate escrow account,
federal funds could be better protected.
In one bankruptcy case, INS was required to recover immigration user fee collections of
approximately $755,000 through the bankruptcy court. However, since the Department of
Justice (DOJ) litigated this matter on behalf of INS, INS did not receive $23,000 of
immigration user fees. The DOJ offsets a three percent collection fee against civil monies
it recovers through litigation on behalf of federal agencies or entities to support
improvements in debt collection.
If the immigration user fee had been remitted on a monthly basis
rather than a quarterly basis, the U.S. Treasury could have realized annualized enhanced
revenues of at least $1 million from interest savings for FY 1995 and 1996. If the Customs
and APHIS user fees had also been remitted on a monthly basis rather than a quarterly
basis, the U.S. Treasury could have also realized annualized enhanced revenues of at least
$1.4 million from interest savings. Appendix I provides a more detailed explanation of the
methodology and data we used to calculate these figures. As explained in Appendix I,there
were different sources of data on passenger statistics that could have been used to
calculate estimated user fee collections on a monthly basis for FY 1995 and 1996. We
elected to use the Department of Transportation's (DOT) "T-100" data. T-100 data
is received on a monthly basis by DOT directly from air carriers on the number of
international flights into the United States and the number of passengers on these
flights.
In our judgment, a monthly remittance schedule would not cause significant, additional
administrative burdens on the collectors. However, INS may want to consider waiving a
monthly remittance requirement for collectors who collect immaterial amounts of user fees.
In a prior OIG audit report3, we noted that the collectors
reviewed had daily, weekly, monthly, and quarterly reports supporting immigration user fee
collections. Furthermore, 8 C.F.R. §286.2 (b) provides that each collector whose monthly
collections in any month exceeds $50,000 shall submit to INS a summary statement showing
the amount of user fees collected for that month. This statement is due on the last
business day of the following month. Thus, some collectors are already reporting user fee
collections on a monthly basis, although the user fees are not required to be remitted
until the quarterly due date.
Recommendations
We recommend that the Commissioner, INS:
1. Initiate changes to the immigration user fee legislation (8 USC 1356) to require the
immigration user fee collections be: (1) remitted to the INS on at least a monthly basis,
and (2) maintained in a separate escrow account that is segregated from collectors'
operating accounts.
Immigration and Naturalization Service Comments
INS agrees and will initiate the recommended changes to the immigration user fee
legislation.
Status of Recommendation
Resolved, based on INS' agreement with the recommendation. Please provide us
documentation of the actions taken to initiate the recommended changes to the immigration
user fee legislation.
2. Coordinate with Customs and APHIS on initiating the recommended legislative change to
the immigration user fee legislation to ensure that consistent remittance requirements are
applied to all three types of user fees, if possible. Thus, ideally, Customs and APHIS
would also initiate changes to their respective user fee legislation in which the Customs
and APHIS user fees would also be remitted on at least a monthly basis.
Immigration and Naturalization Service Comments
INS agrees and will attempt to coordinate with Customs and APHIS on initiating the
recommended legislative change to the immigration user fee legislation.
Status of Recommendation
Resolved, based on INS' agreement with the recommendation. Please provide us
documentation of INS' coordination with Customs and APHIS on initiating the recommended
legislative change to the immigration user fee legislation.
3. Develop a task force with Customs and APHIS to periodically work together to improve
the remittance of user fee collections and to share common findings (for example,
collectors delinquent in remitting user fee collections.)
Immigration and Naturalization Service Comments
INS agrees and will attempt to establish the recommended task force with Customs and
APHIS.
Status of Recommendation
Resolved, based on INS' agreement with the recommendation. Please provide us with
documentation of the establishment of the task force with Customs and APHIS.
APPENDIX I
SCOPE AND METHODOLOGY
Our audit was conducted as a follow up to cash management issues identified in prior
fees-related audit work. The purpose of this audit was to determine whether immigration
user fee collection practices could be enhanced to maximize the resources available to
INS. We conducted our audit in accordance with Government Auditing Standards issued
by the Comptroller General of the United States, and accordingly, included such tests of
the financial records and other auditing procedures as were considered necessary to
accomplish our objective. However, we may not be considered by others to be completely
independent of INS as required by the standards, because INS has reimbursed us for work
that pertained to INS fee-supported programs. The Office of Management and Budget and the
Department of Justice (including the OIG, INS, and the JMD) disagree with INS funding our
work and are attempting to have the funds appropriated directly to the OIG. In FY 1996 and
1997, the OIG received $5 million for fee-related audits, investigations, and inspections.
The dollar amount funded approximately 14 percent of the total OIG staff positions.
Nonetheless, we consider ourselves independent and do not believe that our reimbursement
arrangements with INS have had any effect with regard to our conduct of this audit.
We reviewed applicable federal laws and regulations, as well as INS policies and
procedures, pertaining to the immigration user fee. We also reviewed laws and regulations
governing Customs and APHIS, which both collect a similar passenger user fee. We reviewed
immigration user fee collections for FY 1995 and 1996, and interviewed INS staff in the
Offices of Finance and Budget. The work was performed at the INS headquarters office in
Washington, D.C. Our audit did not include testing of the internal controls over the
collection and remittance of the immigration user fee or testing of compliance with laws
and regulations pertaining to the immigration user fee.
In order to calculate the interest savings of remitting the immigration user fee on a
monthly basis rather than a quarterly basis, we estimated the monthly user fee collections
for FY 1995 and 1996 using the DOT's T-100 database. T-100 data is received on a monthly
basis by DOT directly from air carriers on the number of international flights into the
United States and the number of passengers on these flights. We did not use immigration
user fee collections remitted to the INS for the two fiscal years because we could not
always determine in which month the collections occurred, and further, these remittances
sometimes contained prior years' collections.
We also considered other sources of data to use in estimating user fee collections:
INS' Performance Analysis System (PAS) data and I-92 and International Air Transport
Association (IATA) data. PAS data includes the number of all airport inspections performed
by INS inspectors, including inspections of passengers exempt from the user fee. I-92 data
is completed by INS inspectors and documents the number of passengers by citizenship for
all international flights landing in and departing from the United States, except
international flights to and from Canada. Statistics on passenger travel into the United
States from Canada were supplied by IATA and were added to the I-92 data to complete the
universe of international passengers in our consideration of the I-92 data. At the time of
our review, I-92 data was not available for FY 1996.
Table 2 compares our estimates of immigration user fee collections based on the
different data sources with user fee collections remitted to INS for FY 1995 and 1996.
Based on our analysis, we concluded that the T-100 data was sufficiently reliable for us
to base our calculations on and was also the most conservative estimate of user fee
collections4. In addition, in a prior audit,5 we concluded there was a reasonably close correlation between
T-100 data and immigration user fee deposits over a 4 year period.
Table 2
Immigration User Fee Collections
Fiscal Year
Received by INS
Estimates
T-100
PAS
I-92/IATA
1995
$298,505,108
$305,931,534
$366,382,554
$328,452,180
1996
$347,141,434
$303,000,378
$395,445,492
N/A
Total
$645,646,542
$608,931,912
$761,828,046
N/A
There are several differences between passengers included in T-100 data and passengers
required to pay the immigration user fee, some of which are listed below. In addition,
T-100 data is based on actual travel dates, not the month in which the transportation
ticket was sold and the user fee collected.
· T-100 data includes only air, not sea, port-of-entry arrivals.
· T-100 data excludes foreign air carrier traffic for aircraft with 60 seats or fewer.
·T-100 data could include passengers that are exempt from paying the immigration user
fee.
· T-100 data could exclude airline crew or personnel traveling for non-business
purposes who are not exempt from paying the immigration user fee.
In order to calculate the interest savings if the immigration user fees were remitted
on a monthly basis rather than a quarterly basis for FY 1995 and 1996, we used the current
value of funds rate published by the U.S. Treasury. The rate was 3 percent for the period
January 1, 1994 to June 30, 1995, and 5 percent for the period July 1, 1995 to December
31, 1996. On a monthly remittance schedule, we hypothesized that user fee collections
would be remitted to INS at the end of the month following the month in which the user
fees were collected.
Using the T-100 data in the same manner as for the immigration user fee, we also
calculated the interest savings if both the Customs and APHIS user fees were remitted on a
monthly basis rather than a quarterly basis for FY 1995 and 1996. We believe the use of
the T-100 data also provides a close estimate of the combined Customs and APHIS user fee
collections.
APPENDIX II
SCHEDULE OF DOLLAR-RELATED FINDINGS
Annualized Enhanced Revenues 6
Amount
Page
Interest savings if the immigration user fee collections
had been remitted on a monthly basis rather than a quarterly basis in FY 1995 and 1996.
$1 million
4
Interest savings if the Customs and APHIS user fee
collections had been remitted on a monthly basis rather than a quarterly basis in FY 1995
and 1996.
$1.4 million
4
1 "Annualized" means the average savings each year over a 2 year period,
which would minimize any aberrations in any year's data that was used for the interest
savings calculation.
2 This remittance schedule is for the immigration user fee
collections from airline passengers, rather than from sea vessel passengers. The
remittance schedule for user fee collections from sea vessel passengers follows a strict
calendar quarter. Because user fee collections from airline passengers comprise over 95
percent of the total user fee collections, we used the remittance schedule for user fee
collections from airline passengers in all audit calculations involving the immigration
user fee.
3 Audit Report on Immigration and Naturalization Service
Collection of Immigration User Fees, 89-2, December 1988.
4 During this audit we did not perform detailed testing of
the reliability of the T-100 data. Because the preciseness of T-100 data is not of
paramount importance in estimating user fee collections and interest savings, we believe
the conclusions and recommendations in this report are valid.
5 Immigration and Naturalization Service Forecasting for Fee
Accounts, 96-13, June 1996.
6 Enhanced Revenue is defined as future annual revenues that
can be obtained from management action on audit recommendations. Examples include, but are
not limited to, (1) establishing new fees, (2) increasing existing fees, (3) collection of
current fees or debts owed, or (4) improving the value of assets prior to their sale.
#####